                           October 20, 1997

MEMORANDUM FOR THE SECRETARY

FROM:               John C. Layton
                    Inspector General

SUBJECT:            INFORMATION: Report on "Audit of the
                    Contractor Incentive Program at the Nevada
                    Operations Office"

BACKGROUND:

The Department of Energy (Department) is using performance-based
contracts to address problems associated with its traditional
management and operating contracts. Under this approach,
contractor performance is to be evaluated against performance
measures which are clearly stated, results-oriented, and
established prior to performance. The performance measures,
which reflect the Department's expectations of the contractor,
are the basis for rewarding superior contractor performance
through the use of incentive fees. The purpose of our audit was
to determine whether performance-based contracting, as
incorporated in the Bechtel Nevada Corporation (Bechtel) contract
for the management of the Department's Nevada Test Site and
associated activities, conformed to these principles.

DISCUSSION:

The audit disclosed that the performance measures associated with
the Bechtel contract did not conform to requirements set forth in
the Contract Reform Team report and the Bechtel contract. The
Nevada Operations Office (Nevada) established measurement
milestones after the work had actually been completed by Bechtel.
Further, many of the performance measures were vague and non-
specific and, as a result, Nevada rewarded performance that could
not be objectively validated. These problems were attributable
to the general difficulties in transitioning to the new
contracting concept. As a result, the success of the effort to
implement performance-based contracting at Nevada was at risk.

We recommended that the Manager, Nevada Operations Office,
establish performance measures that are clearly stated and
results-oriented. Further, such measures should be established
before the work is performed and the results should be validated
before incentive fees are disbursed. We also recommended that
Nevada review all performance measure incentive fees paid and
seek recovery where other work was accomplished prior to setting
the measure, where the performance measure was not met, or where
the savings cannot be demonstrated. Management concurred with
both recommendations.

Attachment

cc:     Deputy Secretary
         Under Secretary
                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL




            AUDIT OF THE CONTRACTOR INCENTIVE PROGRAM

                  AT THE NEVADA OPERATIONS OFFICE



The Office of Inspector General wants to make the distribution of
its reports as customer friendly and cost effective as possible.
Therefore, this report will be available electronically through
the Internet at the following alternative addresses:

            Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov

         Department of Energy Headquarters Anonymous FTP
                       vm1.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home Page
                    http://www.hr.doe.gov/ig

  Your comments would be appreciated and can be provided on the
         Customer Response Form attached to the report.

              This report can be obtained from the
                    U.S. Department of Energy
         Office of Scientific and Technical Information
                           P.O. Box 62
                   Oak Ridge, Tennessee 37831



Report Number:   DOE/IG-0412      Western Regional Audit Office
Date of Issue:   October 20, 1997 Albuquerque, New Mexico 87185


            AUDIT OF THE CONTRACTOR INCENTIVE PROGRAM
                 AT THE NEVADA OPERATIONS OFFICE




                         TABLE OF CONTENTS


                                                             Page
            SUMMARY.........................................   1

PART I    - APPROACH AND OVERVIEW...........................   2

            Introduction....................................   2

            Scope and Methodology...........................   2

            Background......................................   3

            Observations and Conclusions....................   3


PART II - FINDING AND RECOMMENDATIONS......................    4

            Performance Measures.............................. 4

PART III- MANAGEMENT AND AUDITOR COMMENTS....................9

PART IV    - APPENDIX

            Summary of Related Office of Inspector General
            Reports
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES

            AUDIT OF THE CONTRACTOR INCENTIVE PROGRAM
                 AT THE NEVADA OPERATIONS OFFICE

Audit Report Number:   DOE/IG-0412

                              SUMMARY

     As a result of recommendations in the 1994 report, Making
Contracting Work Better and Cost Less, the Department of Energy
(Department) has adopted performance-based contracting for the
management and operation of its major facilities. Under this
approach, contractor performance is to be evaluated against
performance measures which are clearly stated,
results-oriented, and established prior to performance. The
performance measures, which reflect the Department's expectations
of the contractor, are the basis for rewarding superior
contractor performance through the use of incentive fees. The
purpose of our audit was to determine whether performance-based
contracting, as incorporated in the Bechtel Nevada Corporation
(Bechtel) contract for the management of the Department's Nevada
Test Site and associated activities, conformed to these
principles.

     The audit disclosed that the performance measures associated
with the Bechtel contract did not conform to requirements set
forth in the Contract Reform Team report and the Bechtel
contract. The Nevada Operations Office (Nevada) established
measurement milestones after the work had actually been completed
by Bechtel. Further, many of the performance measures were vague
and non-specific and, as a result, Nevada rewarded performance
that could not be objectively validated. These problems were
attributable to the general difficulties in transitioning to the
new contracting concept. As a result, the success of the effort
to implement performance-based contracting at Nevada was at risk.

     We recommended that the Manager, Nevada Operations Office,
establish performance measures that are clearly stated and
results-oriented. Further, such measures should be established
before the work is performed and the results should be validated
before incentive fees are disbursed. We also recommended that
Nevada review all performance measure incentive fees paid and
seek recovery where the work was accomplished prior to setting
the measure, where the performance measure was not met, or where
the savings cannot be demonstrated. Nevada concurred with both
recommendations.




                               ________(Signed)_______________
                                Office of Inspector General
                               PART I

                        APPROACH AND OVERVIEW

INTRODUCTION

      As a result of recommendations in the 1994 report, Making
Contracting Work Better and Cost Less, the Department has adopted
performance-based contracting for the management and operation of
its major facilities. Under this approach, contractor
performance is to be evaluated against performance measures which
are clearly stated, results-oriented, and established prior to
performance. The performance measures, which reflect the
Department's expectations of the contractor, are the basis for
rewarding superior contractor performance through the use of
incentive fees. The purpose of our audit was to determine
whether performance-based contracting, as incorporated in the
Bechtel contract, conformed to these principles. Specifically,
we wanted to determine if Nevada paid incentive fees to Bechtel
for performance that was measured against standards established
in advance of the activity and to determine if the performance
measures were sufficiently specific to justify the incentive
fees.

SCOPE AND METHODOLOGY

     The audit was conducted at Nevada and at Bechtel facilities
in North Las Vegas, Nevada, from February through June 1997. To
accomplish the audit objectives, we:

     o    reviewed performance measures, including revisions;

     o    compared available completion documentation for the
          measures with the measure requirements;

     o    compared performance measure requirements with
          strategic planning documents;

     o    compared performance measures with the Department's
          report on contract reform; and,

     o    interviewed Department and contractor officials.

     We reviewed 6 of 27 Fiscal Year (FY) 1996 performance
measures in detail and made a limited review of the 25
performance measures for FY 1997.

     The audit was conducted according to generally accepted
Government Auditing Standards for performance audits, which
included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objective. We assessed significant internal controls designed to
ensure the proper payment of incentive fees associated with
performance measures. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies
that may have existed at the time of our audit.
     The audit did not rely extensively on computer processed
data. Therefore, we did not fully examine the reliability of the
computerized data used.

     We discussed the results of our review during the course of
the audit and at an exit conference with Nevada officials on
August 27, 1997.

BACKGROUND

     In January 1996, Bechtel became the prime management
contractor for the Department's Nevada Test Site and associated
activities. Consistent with the recommendations of the Contract
Reform Team, this was a performance-based contract which
incorporated the performance measure and incentive fee concepts.
The FY 1996 performance measures covered the first nine months of
the contract, January 1, 1996 through September 30, 1996. During
this period, Bechtel's operating budget was $347 million. In
total, performance incentive fees of $19 million were available
for this period and $14.6 million was subsequently paid.
Bechtel's operating budget for FY 1997 was $259 million and the
maximum available incentive fee was $16.7 million.

OBSERVATIONS AND CONCLUSIONS

     This audit report raises a number of concerns regarding the
implementation and administration of the contractor performance
program at Nevada. Further, this is one of several Office of
Inspector General (OIG) reports that have identified similar
issues at other Department locations. In responding to a recent
report on contract reform at Rocky Flats, Audit of the Contractor
Incentive Programs at the Rocky Flats Environmental Technology
Site, the Department recognized that improvements could be made.
As a result, the Deputy Assistant Secretary for Procurement and
Assistance Management directed the following actions:

     o Operations Offices shall establish a senior management
       team to perform an integrated review of all performance
       incentives prior to their being finalized.

     o Performance incentives shall be subject to Headquarters'
       review and approval until lessons learned and remedial
       guidelines have been implemented.

     We support these actions    and believe that their
implementation along with the    recommendations in this report will
not only help the Rocky Flats    Field Office but also allow Nevada
to improve its implementation    and administration of contract
reform.


                                PART II

                   FINDING AND RECOMMENDATIONS

                      Performance Measures
FINDING

     The Department's commitment to performance-based contracting
required the establishment of performance measures that
formalized contractor performance expectations. The performance
measures were to be clearly stated, results-oriented, and were to
define the anticipated performance in advance to ensure that the
Department's objectives were accomplished. The audit disclosed,
however, that the performance measures associated with the
Bechtel contract did not conform to these standards. Nevada
established measurement milestones after the work had actually
been completed by Bechtel. Further, many of the performance
measures were vague and non-specific and, as a result, Nevada
rewarded performance that could not be objectively validated.
These problems were attributable to the general difficulties in
transitioning to the new contracting concept. As a result, the
success of the effort to implement performance-based contracting
at Nevada was at risk.

RECOMMENDATIONS

     We recommend that the Manager, Nevada Operations Office:

     1) establish performance measures that are clearly stated
        and results-oriented. Further, such measures should be
        established before the work is performed and the results
        should be validated before incentive fees are disbursed;
        and,

     2) review all performance measure incentive fees paid and
        seek recovery where the work was accomplished prior to
        setting the measure, where the performance measure was
        not met, or where the savings cannot be demonstrated.

MANAGEMENT REACTION

     The Manager, Nevada Operations Office, concurred with both
recommendations. Part III of this report includes detailed
management and auditor comments.

                       DETAILS OF FINDING

     The Bechtel contract required that the parties agree on a
set of contractor performance measures that identified
performance in advance, and that were clearly stated and results-
oriented. Such measures were to specify the Department's
expectations so that the contractor could focus on the best way
to carry out its responsibilities. Further, clearly defined
performance measures were to be the baseline against which
Bechtel's performance was to be evaluated and rewarded through an
incentive fee structure.

FY 1996 Performance Measures

     The Bechtel contract included performance measures for FY
1996 that did not establish performance requirements in advance,
were not clearly stated, and were not results-oriented. In fact,
many of the performance milestones were established after the
contractor had completed the required work effort. Further, some
of the measures were so vague as to be ineffective as performance
evaluation tools. Consequently, Nevada accepted performance
claims from the contractor and paid significant incentive fees to
Bechtel despite the fact that the claims could not be objectively
validated. We took exception to three of the six measures
examined.

     Establishing Milestones

     For two of the measures, the Department's requirements had
not been established in advance of contractor performance. The
Subcritical Experiments measure required Bechtel to support two
experiments scheduled during the fiscal year. The Laboratory
Readiness measure required Bechtel to support the requirement for
above-ground experiments. The available fees for the measures
were $1.9 million and $950,000, respectively. Of this total,
$1.7 million or 60 percent was earmarked for work "to be
determined." As the fiscal year progressed, milestones were
established that identified the work to be performed for Bechtel
to earn its incentive fee. However, many of the milestones were
added after the work had already been accomplished by Bechtel.

     Ten such milestones were added to the Subcritical
Experiments measure during the course of FY 1996. On June 25,
1996, for example, Nevada established milestones to (1) replace a
hoist for the underground facility and (2) perform a "safety
walkdown." However, the actual work associated with these
milestones had been completed on February 5, and April 1, 1996,
respectively. On September 10, 1996, seven additional milestones
were added to the measure even though the required work had been
completed by the contractor between June 20, and August 30, 1996.
On October 15, 1996, the last milestone was added to the measure
which had been met by the contractor on September 26, 1996.

     The Laboratory Readiness measure included two milestones
added on September 5, 1996. Again, this was after the contractor
had already completed the required work.

     Performance milestones established after the fact do not
incentivize future contractor performance. This practice created
a retroactive, artificial basis to support the payment of
contractor fees and was incompatible with the basic principles of
performance-based contracting. In these specific cases, Bechtel
received an incentive fee of $775,600. We concluded that payment
of these fees could not be supported.

     Although Nevada acknowledged that there were delays in
getting metrics (milestones) formally approved, it believed that
sufficient evidence existed to demonstrate that the metrics were
developed and agreed to before accomplishing the work. However,
Nevada was unable to provide any documentation to support its
position.

     Measuring Performance
     The Indirect Cost Reductions performance measure was neither
clearly stated nor results-oriented. Thus, Bechtel's success
or lack of success in accomplishing this measure could not be
validated objectively. The indirect cost reduction measure
required Bechtel to reduce indirect and fringe benefit costs at
the Nevada site. Specifically, such costs were to be reduced by
up to $38 million with the "savings" made available for alternate
Departmental uses. The process to use cost reduction savings for
alternative uses within the Department was referred to as
"reuse." To incentivize Bechtel's efforts, Nevada offered a
performance incentive fee of up to $3.2 million. Ultimately,
Bechtel was paid a fee of $1.8 million for claimed savings of
$10.2 million.

     Since the ability to validate claimed cost savings is
crucial in determining incentive fees, we attempted to validate
the largest of Bechtel's claimed savings. We could not do so
because budget baseline and change documents were not available.
The baseline information is the criteria against which cost
reduction claims are evaluated. One portion of the savings,
according to Bechtel's claim, resulted from an initiative to
reduce the total number of internal procedures. The audit
disclosed that Nevada accepted Bechtel's claim that 1,000
unnecessary internal procedures had been eliminated. Bechtel
claimed that it saved $1.5 million annually through enhanced
personnel productivity by eliminating these unneeded procedures.
However, Bechtel could not relate the staff time spent on each
procedure to a direct dollar saving. Nevada, nonetheless, paid
Bechtel a cost reduction incentive fee of $301,000. Neither
Nevada nor Bechtel could demonstrate that the claimed savings had
been made available for Departmental reuse either through a
deobligation to the contract or a reprogramming of funds. The
reuse provision was a key element in the Department's procedure
to validate the cost savings claimed by the contractor. Because
Bechtel could not show how hard dollar savings had been reused,
we questioned the validity of the fee paid to Bechtel.

     In another instance, Bechtel claimed a savings of $2.8
million because employee fringe benefit costs were less than
those of the previous site operating contractors. For this
action, the Department paid Bechtel a cost reduction incentive
fee of $343,500. Once again, the "reuse" test failed to confirm
contractor claims of cost savings. Neither Nevada nor Bechtel
could demonstrate that the claimed savings had been deobligated
from its contract or reprogrammed for other use. Therefore, the
incentive fee of $343,500 paid to Bechtel appeared questionable.

     We discussed our concerns regarding the difficulty in
tracking this particular claim and contractor savings claims, in
general, with a senior Bechtel official and with Nevada. The
Bechtel official agreed that it may not be possible to
demonstrate how all claimed savings were reused. But, he
contended, the savings did occur. In response to our concern,
Nevada acknowledged that its validation of claimed savings was
subjective because of the difficulty in establishing baselines
from which to measure and pointed out that this difficulty was
compounded by the transition from three contractors to one. It
believed that when the contractor could identify an action taken
to reduce cost and when the savings claimed appeared reasonable
and consistent with the objectives of the performance measure,
the claim was valid. However, neither Nevada nor Bechtel
provided documentation to demonstrate that claimed savings
actually resulted in reduced contract cost or increased work
scope. By continuing to subjectively determine performance award
fees, Nevada has demonstrated its fundamental misunderstanding of
performance award fee contracts.

FY 1997 Performance Measures

     The FY 1997 performance measures were established in
February 1997 or in the fifth month of the fiscal year.
According to the contract, they should have been established
before the fiscal year began. Further, many of the FY 1997
measures, as was the case in FY 1996, were neither clearly stated
nor were they results-oriented. They did not specifically
describe the Department's expectations for contractor
performance. Consequently, determining the incentive fees for FY
1997 will likely require a great deal of interpretation by the
Department and the contractor.

     Many of the FY 1997 measures were subjective and process-
oriented. For example, one of the key measures described the
expected performance as follows:

         Reduce the cost of doing business through
         business development, more efficient
         processes and practices, and the
         identification of innovative problem solving
         solutions; demonstrate a strong commitment
         to the business management and oversight
         program; demonstrate the cost effective and
         efficient implementation of necessary and
         sufficient standards; and demonstrate that
         open and candid communication and trust is a
         recognized Bechtel Nevada priority and a
         company-wide effort.

     Despite the fact that there was a potential incentive fee of
$2.5 million associated with this measure, its vague and
indefinite language makes it nearly impossible for the Department
to objectively evaluate contractor performance. We found that
other FY 1997 performance measures were defined in similar terms.
This imprecise language, which leads to subjective judgments, is
not, in our opinion, the type of criteria envisioned in a
performance-based contract.

Transitioning to a New Contract

     The problems identified in this audit were generally
attributed to the challenges associated with the transition from
the management and operating contract to the new performance-
based contract. One division manager expressed frustration with
the limited time given at the start of the performance-based
contract to define measures and with the lack of procedures or
policy related to the establishment of milestones throughout the
year. He explained that there was a big change in mindset from
the traditional award fee process where fee was decided at the
end of a period to the performance-based contract where
expectations for contractor performance and the associated
incentive fee were to be established and fully understood at the
outset of the period of performance.

     Another division manager explained that with a totally new
contract vehicle, Nevada struggled with its role of setting
performance targets. Further, he explained that he was initially
unaware of the need to validate contractor claims of incentive
fee earned. However, he stated that he now requires one of his
staff members to validate claims and document the results.

     Finally, financial officials said that the use of the word
"reuse" as a prerequisite to the successful accomplishment of
contractor initiated cost reductions was unclear. They explained
that when the contractor could demonstrate action was taken to
reduce costs and the estimate of costs saved appeared reasonable,
the performance was deemed acceptable. In summary, all of the
officials we talked to contended that the cause of difficulties
in implementing an effective performance-based contracting
process was the inexperience in designing performance measures.

Continued Improvement

     In moving to performance-based contracting, the Department
sought to obtain superior contractor performance by establishing
expectations, measuring results, and incentivizing contractor
activities.

     However, we concluded that, despite its intentions, the
Department paid Bechtel at least $1.42 million in incentive fees
which could not be fully justified. As a result, we questioned
these payments. We believe that Nevada needs to adopt
performance measures which are clear and measurable so that
contractor performance is enhanced through appropriate
incentives.


                              PART III

                   MANAGEMENT AND AUDITOR COMMENTS

     The Manager, Nevada Operations Office, concurred with both
recommendations. The comments made with regard to the
recommendations and our responses follow.

Recommendation 1

     Recommendation. We recommend that the Manager, Nevada
Operations Office, establish performance measures that are
clearly stated and results-oriented. Further, such measures
should be established before the work is performed and the
results should be validated before incentive fees are disbursed.
     Management Comments. Nevada concurred that performance
measures should be clearly stated and results-oriented. Nevada
also concurred that measures should be established before the
work is performed and results validated before incentive fees are
disbursed. As recognized in the audit report, FY 1996 was the
first year that Nevada administered a performance-based
management contract. Nevada stated that it fully recognized that
opportunities for improvement would be identified as this process
evolved, and has been proactive in instituting changes which are
designed to meet both the spirit and intent of the
recommendation.

     To demonstrate its commitment to improving the
administration of the incentive fee process consistent with the
recommendation, Nevada has developed a procedural instruction
institutionalizing the processes for scorecard development,
change control, and performance evaluation. This instruction
provides specific guidelines and requirements for documenting the
process and rationale for selecting the proposed performance
objectives, performance measures, and proposed weights. The
process for defining the types of changes that can be made also
has been formalized and is designed to ensure that there is
adequate analysis and coordination by all parties prior to making
any changes to the performance measures.

     For FY 1998, Nevada has revised the approach to fee
administration for the performance-based management contract to
provide for an award fee component to address those overall
activities which do not readily lend themselves to the incentive
fee concept. Under the revised process as outlined in the
procedural instruction, the incentive fee component provides
management emphasis on Nevada's critical few management and
program performance objectives. This will facilitate the focus
on performance measures that are results-oriented and the
evaluation of performance based on objective criteria.

     Auditor Comments.   Nevada's comments are responsive to the
recommendation.

Recommendation 2

     Recommendation. We recommend that the Manager, Nevada
Operations Office, review all performance measure incentive fees
paid and seek recovery where the work was accomplished prior to
setting the measure, where the performance measure was not met,
or where the savings cannot be demonstrated.

     Management Comments. Nevada concurred and said that in June
1997, a joint Nevada and Headquarters select team commissioned
under the auspices of the Secretary's Performance Based Incentive
Review initiative conducted a thorough review of all FY 1996
performance based incentives in the Bechtel Nevada contract.
This review and other independent oversight activities performed
by Nevada identified two instances in which fee was determined
not to be warranted based on strict application of the
performance metrics. In each of these instances, the questioned
fee was recovered by Nevada from the contractor. Nevada stated
that this review and other oversight activities it performed,
when coupled with audits by the Bechtel Nevada Internal Audit
Group and the OIG, provide reasonable assurance that, with the
exception of the two instances noted, the FY 1996 fee
determinations were justified and supportable and that further
reassessments of the FY 1996 performance measures would be
unnecessary.

     In summarizing its position, Nevada acknowledged the
difficulty and complexity of implementing this process in the
first year. Nevada further stated that FY 1996 performance
measures have been thoroughly reviewed and the audits have
resulted in approximately the same procedural recommendations.
As noted by the Nevada and Headquarters joint review team, Nevada
had already identified a number of these issues through its
ongoing efforts to improve contract administration and contractor
performance. Nevada has worked aggressively to implement all
recommendations from these review activities.

     Auditor Comments. Although Nevada concurred in the
recommendation and said that action had been taken to recover fee
that was not warranted, it did not specifically state or provide
us with data demonstrating that the amounts questioned in this
report were fully collected or resolved. Until this is
clarified, this issue remains open.


                             PART IV

                            APPENDIX

     Summary of Related Office of Inspector General Reports

  1. DOE/IG-0401, Inspection of the Performance Based Incentive
     Program at the Richland Operations Office, March 1997.

  This inspection reviewed the Richland Operations Office's
  (Richland) Performance Based Incentive Program. The report
  showed that Richland did not always make the best use of the
  incentive fees paid to the management and operating
  contractor. The inspection found examples of incentive fees
  paid that were (1) excessive when compared with the cost of
  labor and material to perform the work, (2) for work that was
  accomplished before Richland's program was established, (3)
  for work that was not completed, and (4) for work that was
  easily achieved by the contractor. There was also an instance
  where the contractor compromised quality and safety in order
  to earn an incentive fee. The report also contained a number
  of administrative weaknesses and observations.

  2. DOE/IG-0410, Audit of Environmental Restoration at the Los
     Alamos National Laboratory, July 1997.

  This audit reviewed the Los Alamos National Laboratory's
  performance criteria for remediating contaminated sites. The
  report showed that the performance criteria used to evaluate
     cost effectiveness of remediating contaminated sites were not
     always reasonable, measurable, and complete.

     3. DOE/IG-0411, Audit of the Contractor Incentive Programs at
        the Rocky Flats Environmental Technology Site, August 1997.

     This audit reviewed the Rocky Flats cost savings awards and
     performance fees paid. The report showed that (1) Rocky Flats
     approved cost savings awards that were not innovative and
     generally did not return savings to the Department as required
     by Departmental guidance, and (2) Rocky Flats performance
     measures did not always include clearly defined criteria, were
     not structured to encourage and reward superior performance,
     and were often process- rather than results-oriented as
     required by the report on contract reform.



                                        Report No.   DOE/IG-0412


                        CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make
our reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing
your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions
if they are applicable to you:

1.     What additional background information about the
       selection, scheduling, scope, or procedures of the
       audit or inspection would have been helpful to the
       reader in understanding this report?

2.     What additional information related to findings and
       recommendations could have been included in this
       report to assist management in implementing corrective
       actions?

3.     What format, stylistic, or organizational changes
       might have made this report's overall message more
       clear to the reader?

4.     What additional actions could the Office of Inspector
       General have taken on the issues discussed in this
       report which would have been helpful?

Please include your name and telephone number so that we may
contact you should we have any questions about your
comments.

Name ___________________________     Date__________________________

Telephone ______________________     Organization__________________
When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586-0948, or you may
mail it to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
     Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
